BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Petition for Writ of
Certiorari in Snodgrass-King Pediatric Dental
Associates, P.C. and David J. Snodgrass, D.D.S. v.
DentaQuest USA Insurance Co., Inc., were sent via
Next Day Service to the U.S. Supreme Court, and 3
copies were sent via Next Day Service, and e-mail to
the following parties listed below, this 25th day of
November, 2019:
Russell B. Morgan
Edmund Scott Sauer
Jeffrey William Sheehan
Bradley Arant Boult Cummings
1600 Division Street
Suite 700
Nashville, TN 37203
(615) 244-2582
rmorgan@bradley.com
esauer@bradley.com
jsheehan@bradley.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

' (800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

Franklin Square

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

Luther T. Munford
Counsel of Record
BUTLER SNOW LLP
1020 Highland Colony Parkway
Suite 1400
Ridgeland, Mississippi 39157
(601) 948-5711
luther .munford@butlersnow.com
Robert J. Walker
BUTLER SNOW LLP
The Pinnacle at
Symphony Place
150 Third Avenue South
Suite 1600
Nashville, Tennessee 37201
(615) 651-6700
bob.walker@butlersnow.com
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 25, 2019.

Donna J. Wolf
Becker Gallagher Leg
blishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

JULIE ANNE KERSHNER
No12,ry Public, State of Ohio
t·;1l' Commission Expires
February 21, 2023

